          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Examination Report
People's Equal Action and
Community Effort, Inc. −
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-11-20                       September 2011
                                Department of Energy
                                   Washington, DC 20585
                                      September 30, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                   Rickey R. Hass
                        Deputy Inspector General
                           for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "People's Equal Action and
                        Community Effort, Inc. − Weatherization Assistance Program Funds
                        Provided by the American Recovery and Reinvestment Act of 2009"
                        Audit Report Number: OAS-RA-11-20


BACKGROUND

The attached report presents the results of an examination of the People's Equal Action and
Community Effort, Inc. (PEACE), Weatherization Assistance Program (Weatherization
Program) under the American Recovery and Reinvestment Act of 2009 (Recovery Act). The
Office of Inspector General (OIG) contracted with an independent certified public accounting
firm, Otis and Associates, PC (Otis), to express an opinion on the agency's compliance with
Federal and State laws, regulations and program guidelines applicable to the Weatherization
Program.

The Recovery Act was enacted to stimulate the economy and encourage investment in the
Nation's energy future. As part of the Recovery Act, the Weatherization Program received
$5 billion to reduce energy consumption for low-income households through energy efficient
upgrades. The State of New York received $394 million in Weatherization Program Recovery
Act grant funding, of which $13.6 million was allocated to PEACE. The State of New York's
Division of Housing and Community Renewal (DHCR) was responsible for administering
Weatherization Program grants, including funds provided to PEACE.

CONCLUSIONS AND OBSERVATIONS

Otis expressed the opinion that, except for the weaknesses described in its report, PEACE
complied in all material respects with the requirements and guidelines relative to the
Weatherization Program for the period July 1, 2009 to December 31, 2010. Specifically, the
examination found that PEACE had not:

   •   Developed and maintained a list of previously weatherized multi-family projects or
       information from the State of New York to determine the eligibility of proposed projects
       for Recovery Act weatherization services;
                                                2


   •   Properly identified and separately accounted for over $3,000 in interest earned on the
       Weatherization Program cash advance it received from the Department of Energy
       (Department), and therefore, had not returned the interest earned to the U.S. Department
       of Treasury as required;

   •   Performed post-inspections on all units that received additional weatherization services
       because of deficiencies identified; and,

   •   Maintained a list of all weatherization measures installed, thereby precluding the
       occupant from certifying the work was completed.

The attached report makes recommendations to PEACE to improve the administration of its
Weatherization Program. PEACE provided responses that expressed agreement with the
recommendations, and provided planned and ongoing actions to address the issues identified. In
addition to the comments from PEACE, the New York State DHCR provided a response
generally concurring with the audit findings and recommendations. DHCR's comments which
addressed other ongoing Weatherization Program examinations are included in their entirety in
Attachment 2. While these responses and planned corrective actions are responsive to our
recommendations, the Department needs to ensure the planned actions are completed.

RECOMMENDATION

As part of its responsibilities for managing the Weatherization Program, we recommend the
Acting Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Ensure appropriate action is taken by the State of New York to improve People's Equal
       Action and Community Effort, Inc.'s administration of Recovery Act Weatherization
       Program funds.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

We received comments on an official draft report from the Deputy Assistant Secretary for
Energy Efficiency and Renewable Energy stating that PEACE will be asked to make a number of
improvements designed to resolve the identified issues. Additionally, the Department Project
Officer and/or Contract Specialist will monitor the progress of PEACE during the quarterly
review of the Grantee and follow-up will continue until all recommendations have been
implemented. The Department's comments are included in their entirety in Attachment 3.

Management's comments were responsive to the findings and recommendation.

EXAMINATION LEVEL REVIEW

Otis conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of PEACE's
                                                3


policies and procedures and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Otis did not comply, in all material
respects, with the attestation requirements. Otis is responsible for the attached report dated
September 27, 2011, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                      Attachment 1


 Report on Examination Level Attestation Engagement

                         Of

  People’s Equal Action and Community Effort, Inc.
Recovery Act Weatherization Assistance Program Funds



    Performed for the U.S. Department of Energy,
            Office of Inspector General

                       Under

          Contract Number: DE-IG0000018
           Work Order Number: 2011-01


                         By


               Otis and Associates, PC


                 September 27, 2011
                                                                                                      Attachment 1 (continued)


                                                     Table of Contents

Section                                                                                                                     Page

I.     Independent Accountants’ Report............................................................................1

II.    Background. .............................................................................................................2

III.   Classification of Findings ........................................................................................5

IV.    Summary of Findings...............................................................................................6

V.     Significant Deficiencies ...........................................................................................7

VI.    Advisory Comments ..............................................................................................10

VII.   Grantee’s Response (Full Text) .............................................................................11
                                                                                     Attachment 1 (continued)




____________________      _________`________________________________________________________________________________


                            INDEPENDENT ACCOUNTANTS’ REPORT

To: Inspector General
    U.S. Department of Energy

We have examined People’s Equal Action and Community Effort Inc.’s compliance with Federal
and State laws and regulations, and guidelines applicable to the Weatherization Assistance
Program funded by the American Recovery and Reinvestment Act of 2009. People’s Equal
Action and Community Effort Inc., is responsible for operating the Weatherization Assistance
Program in compliance with these laws and regulations, and Program guidelines. Our
responsibility is to express an opinion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the Comptroller General of the United
States; and, accordingly, included examining, on a test basis, evidence supporting management’s
compliance with relevant American Recovery and Reinvestment Act of 2009 Weatherization
Assistance Program guidelines; Federal and State laws and regulations; and performing such
other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion.

Because of the inherent limitations in any internal control structure or financial management
system, noncompliance due to error or fraud may occur and not be detected. Also, projections of
any evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions, or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section V of this report, People’s Equal
Action and Community Effort Inc., complied, in all material respects, with the aforementioned
requirements and guidelines, relative to the Weatherization Assistance Program funded by the
American Recovery and Reinvestment Act of 2009 for the period July 1, 2009 through
December 31, 2010.


Otis and Associates, PC
Takoma Park, MD

March 11, 2011

__________________________________________________      ____________________________________________________________




                                                                                                                   1
                                                                       Attachment 1 (continued)
                               SECTION II - BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Act authorizes funding to various economic sectors and U.S. Federal
departments. The Weatherization Assistance Program (Weatherization Program), under the U.S.
Department of Energy (Department), received $5 billion of funding to achieve the purposes set
forth in the Act, including the preservation and creation of jobs, promotion of economic recovery
and reduction in energy consumption.

The Department’s Weatherization Program objective is to increase the energy efficiency of
dwellings owned or occupied by low-income persons, reduce their total expenditures on energy,
and improve their health and safety. The Department has a special interest in addressing these
needs for low-income persons, who are particularly vulnerable, such as the elderly, disabled
persons, and families with children, as well as those with high energy usage and high energy
burdens. The Weatherization Program is a categorical formula grant program administered by
the Department, under a regulatory framework laid out in 10 CFR Part 440, Weatherization
Assistance for Low-Income Persons. The Recovery Act made significant changes to the grant
program administered by the Department. For example, the average per unit cost of
weatherizing a home/unit was increased from $2,500 under the Program, to $6,500 under the
Recovery Act.

The Department’s Office of Inspector General (OIG) contracted with Otis and Associates, PC to
perform an Examination Level Attestation engagement on the Recovery Act Weatherization
Program services provided by the State of New York’s sub-grantees. People’s Equal Action and
Community Effort, Inc., (PEACE) is one of four sub-grantees selected by the Department’s OIG.

Under the Recovery Act, the State of New York’s Division of Housing and Community Renewal
(DHCR) received an allocation of approximately $394 million from the Department, for the
Weatherization Program. DHCR then allocated about $13.6 million of this amount to PEACE.

PEACE is a not-for-profit community-based organization, registered with State of New York
that employs 363 full-time and 134 part-time employees. PEACE was founded in 1964; and in
1968, was officially recognized as the Community Action Agency for Syracuse and Onondaga
Counties. PEACE provides a variety of programs for low-income individuals and families
throughout the community including services to eligible Syracuse and Onondaga County
residents under the Weatherization Program.

Under the Recovery Act Weatherization Program, PEACE signed a contract for $5.9 million
with the State of New York, Division of Housing and Community Renewal (DHCR), to serve the
residents of Syracuse and Onondaga Counties. This contract had a production goal of
weatherizing a total of 856 homes/units between July 1, 2009 and September 30, 2011 that was
later amended to $9.6 million, and 1,357 homes/units. Under this contract, PEACE is
responsible for weatherizing both single-family and multi-family homes/units. As of December
31, 2010, PEACE had weatherized a total of 1,517 homes/units, with total Weatherization
Program costs of $5,978,256. Of the total homes/units weatherized, 1,088 homes/units are multi-
family; and 429 are buildings consisting of one to four units each.




                                                                                                 2
                                                                     Attachment 1 (continued)
PEACE was awarded a separate contract for $4 million by the State of New York’s DHCR to
provide weatherization services on multi-family projects located outside of Syracuse and
Onondaga Counties. Under this contract, PEACE has a production goal of weatherizing a total
of 576 homes/units between January 1, 2010 and September 30, 2011. As of December 31,
2010, PEACE had weatherized a total of 152 units in three buildings at a cost of $345,780.

PEACE has been providing weatherization services for multi-family projects prior to the
enactment of the Recovery Act. PEACE was one of the first sub-grantees in the State of New
York to perform energy audits on multi-family projects. Currently, PEACE employs three multi-
family energy auditors, who are certified by the Building Performance Institute (BPI). PEACE
utilizes both in-house and contract weatherization crews to provide Program services. During
the period covered by our examination, PEACE used its in-house weatherization crew for single-
family units and buildings consisting of one to four units each; while contract weatherization
crews were used to provide services on multi-family projects.

The following tables summarize the Weatherization Program’s financial data:

PROGRAM FUNDS ALLOCATED TO PEACE BY STATE OF NEW YORK

                                         Production
 Contract          Amount                     Goal Completed
 C092249            $ 5,939,753                 856
 Amendment 1        $ 3,694,369                 501
          Subtotal  $ 9,634,122               1,357     1,517
 C092308            $ 4,000,000                 576       152
       Grand total  $13,634,122               1,933     1,669

PROGRAM COSTS INCURRED BY PEACE AS OF DECEMBER 31, 2010

Contract Number C092249
 Expense Category                      Amount
 Direct Material                                  $ 2,552,976
 Direct labor                                     $ 2,652,585
 Program Support                                  $ 412,314
 Liability Insurance                              $     32,999
 Financial Audit                                  $      9,696
 Training and Technical Assistance                $     20,000
 Administration                                   $ 297,686
 Total                                            $ 5,978, 256




                                                                                              3
                                                                  Attachment 1 (continued)



Contract Number C092308
 Expense Category                       Amount
 Direct Material                                   $123,507
 Direct labor                                      $189,357
 Program Support                                   $ 5,971
 Liability Insurance                               $ 5,276
 Financial Audit                                   $ 2,216
 Training and Technical Assistance                 $    370
 Administration                                    $ 19,083
 Total                                             $345,780

PROGRAM FUNDS RECEIVED BY PEACE AS OF DECEMBER 31, 2010

 Contract Number Fund Description                    Amount
 C092249         Initial Advance                        $1,484,938
                 Monthly Cost reimbursements            $5,978,256
                 Sub-Total                              $7,463,194

 C092308             Initial Advance                     $ 300,000
                     Monthly Cost reimbursements         $ 345,780
                     Sub-Total                           $ 645,780
                     Grand Total                         $8,108,974




                                                                                        4
                                                                        Attachment 1 (continued)


                     SECTION III - CLASSIFICATION OF FINDINGS

DEFINITIONS

Each finding is categorized as a Significant Deficiency or Advisory Comment, as defined below,
for the purposes of this examination:

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
could adversely affect PEACE’s ability to initiate, authorize, record, process, or report data
reliably, in accordance with the applicable criteria or framework, such that there is more than a
remote likelihood that a misstatement of the subject matter that is more than inconsequential will
not be prevented or detected.

Advisory Comment

An advisory comment represents a control deficiency that is not significant enough to adversely
affect PEACE’s ability to record, process, summarize, and report data reliably.




                                                                                                  5
                                                                     Attachment 1 (continued)


                       SECTION IV - SUMMARY OF FINDINGS



Finding 1:   List of previously weatherized multi-family projects was not maintained for use in
             determining eligibility for re-weatherization - Significant Deficiency

Finding 2:   Interest Earned on cash advance was not properly identified and separately
             accounted for in general ledger - Significant Deficiency

Finding 3:   Post-inspection was not performed on additional work done to correct
             weatherization deficiencies - Significant Deficiency

Finding 4:   Inadequate documentation of post-inspection (Building Work Summary) -
             Advisory Comment




                                                                                             6
                                                                          Attachment 1 (continued)


                       SECTION V - SIGNIFICANT DEFICIENCIES


Finding 1:     List of previously weatherized multi-family projects was not maintained for
               use in determining eligibility for re-weatherization - Significant Deficiency

PEACE did not develop and maintain a list of previously weatherized multi-family projects for
use in determining eligibility of proposed projects for weatherization under the Recovery Act
Weatherization Program. Further, PEACE did not use database information available from the
State of New York for this purpose.

Under the Recovery Act and Departmental requirements, weatherization service providers are
required to ensure that homes/units weatherized using Weatherization Program funding after
September 30, 1994 do not receive additional weatherization assistance unless the home/unit has
been damaged by fire, flood or act of God and repair or damage to weatherization materials is
not paid for by insurance. The Department of Energy's Office of Weatherization and
Intergovernmental Programs was very clear that grantees and sub-grantees are required to ensure
that a “duplicate application check” is performed for every address deemed eligible to determine
that weatherization services had not been provided after September 30, 1994.

PEACE did not develop policies and procedures for using databases provided by the State of
New York when determining eligibility of multi-family projects for weatherization to ascertain
that previously weatherized projects are not re-weatherized. PEACE’s management stated that it
relied on its employees’ experience and knowledge in ensuring that the multi-family homes/units
previously weatherized were not re-weatherized. PEACE’s management also stated that it
considered its employees’ experience and knowledge as being adequate for the limited number
of multi-family projects weatherized. Management also stated they have begun to develop and
maintain a list of previously weatherized multi-family projects for use in determining the
eligibility of multi-family projects for re-weatherization in the future.

As a result of the condition noted above, the risk that ineligible homes/units could be re-
weatherized using Recovery Act funds is increased.

Recommendation:
1.1 We recommend that PEACE develop policies and procedures that will ensure that its
    employees review the databases provided by New York State when reviewing eligibility of
    properties for weatherization services.

Management Comments and Auditors’ Analysis
PEACE’s management concurred with the finding and recommendation, and has established an
internal log for previously weatherized multifamily projects in Onondaga County. PEACE’s
management will also access the State databases provided by New York State as a component of
their policies and procedures.

We consider PEACE management’s action to be adequate.


                                                                                                7
                                                                          Attachment 1 (continued)


Finding 2:     Interest Earned on cash advance was not properly identified and separately
               accounted for in general ledger - Significant Deficiency

During our cash test work, we noted that PEACE earned interest of over $3,000 on the Recovery
Act Weatherization Program cash advance it had received. However, PEACE did not separately
identify and account for, in its general ledger, the interest earned.

According to OMB Circular A-110, Uniform Administrative Requirements for Grants and
Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
Organizations, Section 21 (b), the sub-grantee financial management system shall provide
accurate, current and complete disclosure of the financial results of each federally-sponsored
project or program and records that identify adequately the source and application of funds.
Also, 10 CFR 600, states that recipients must maintain advance payments of Federal funds in
interest-bearing accounts and remit, quarterly, the interest earned to the contracting officer for
return to the Department of Treasury. Furthermore, the State of New York Weatherization
Assistance Program Policies and Procedures Manual does not require advances to be put into
interest-bearing account, but requires interest earned on such funds to be returned to the
Treasury.

PEACE’s management stated that the interest earned on the cash advance was not separately
accounted for in its general ledger because they believe that they had discretion on how to
account for, and use, the interest income.

As a result of the condition noted above, PEACE did not return interest earned on Recovery Act
Weatherization Program funds to the Treasury.

Recommendation:
2.1 We recommend that PEACE properly identify, and separately account for, the interest earned
    on Weatherization Program funds advanced, in its general ledger; and remit the over $3,000
    in interest earned to the Department of Treasury.

Management Comments and Auditors’ Analysis
PEACE’s management concurred with the finding and recommendation, and has agreed to remit
the interest earned as of May 31, 2011 to DHCR. They also intend to remit final interest earned
to DHCR within sixty days of the expiration of the Recovery Act contract.

We consider PEACE management’s action to be adequate.




                                                                                                     8
                                                                          Attachment 1 (continued)


Finding 3:     Post-inspection was not performed on additional work done to correct
               weatherization deficiencies - Significant Deficiency

During our review of supporting documentation for weatherized homes/units, we noted two
instances, out of ten single-family units in our sample, where the sub-grantee crew went back to
the units to provide additional weatherization services, and/or correct weatherization services
previously provided. These homes/units had been inspected, and the work had been considered
satisfactory. We noted that the additional weatherization services and/or correction services
performed did not receive post-inspection, and that the owner/occupant did not sign for the
additional services received.

The State of New York’s policy on weatherized homes/units requires sub-grantees to conduct a
post-inspection of completed buildings before presentation of the work to the State of New York
for certification. The policy also requires that only when the work is fully acceptable and
completed, including the installation of all materials, should the post-inspector and the client sign
the Building Work Summary (BWS) or the Apartment Building Work Summary policy.

PEACE’s management stated that employees were required to report to their supervisors, any
corrections made to previously completed work, but they were not required to request any post-
inspection of the corrections made.

Although the corrections appeared to be minimal, as a result of the condition noted above,
Program funds may have been used to pay for sub-standard weatherization services, due to the
lack of post-inspection of the additional weatherization services and/or corrections performed.

Recommendation:
3.1 We recommend that PEACE implement procedures that require its employees to perform
    post-inspections on all weatherization services provided with Recovery Act Weatherization
    Program funds.

Management Comments and Auditors’ Analysis
PEACE’s management concurred with the finding and recommendation, and has implemented a
policy whereby documentation of corrected deficiencies is required for post inspection, after the
corrections has been completed.

We consider PEACE management’s action to be adequate.




                                                                                                    9
                                                                        Attachment 1 (continued)


                          SECTION VI - ADVISORY COMMENTS


Finding 4:     Inadequate documentation of post-inspection (Building Work Summary) -
               Advisory Comment

During our review of the quality of work inspections performed by PEACE’s inspectors, we
noted that the home/unit owner/occupant signs off on the Building Work Summary to indicate
and certify that the weatherization work has been completed, and that the services were bona-
fide. However, PEACE did not list the weatherization measures installed on the Building Work
Summary, as required by the State of New York. Therefore, the home/unit owner/occupant
could not have ascertained that the measures they were certifying to be completed.

According to the State of New York, by signing the Building Work Summary, the home/unit
owner/occupant is certifying that to the best of their knowledge, the work indicated on the
Building Work Summary, and summarized on the reverse side has been completed.

PEACE’s management stated that listing all of the weatherization measures installed, on a
Building Work Summary is redundant, because they are attached to the post-inspection report,
which shows a listing of the weatherization materials used for each measure installed in the
unit/home. However, our review of the post-inspection reports showed that the measures
installed were not detailed on the reports for owner/occupant to know the measures that were
installed.

As a result of the conditions noted above, the home/unit owner/occupant may have erroneously
certified that measures not installed, but listed on the post-inspection report, were installed.
Also, Program funds may have been claimed and received by PEACE for measures not
performed, but listed on post-inspection reports.

Recommendation:
4.1 We recommend that PEACE clearly list on the Building Work Summary, all of the
    weatherization measures installed, before requiring home/unit owner/occupant certification
    and sign-off.

Management Comments and Auditors’ Analysis
PEACE’s management concurred with the finding and recommendation, and has implemented a
policy whereby all future weatherization measures installed will be clearly stated on the Building
Work Summary before home/unit owner/occupant certification and sign off is completed.

We consider PEACE management’s action to be adequate.




                                                                                                 10
                                      Attachment 1 (continued)


SECTION VII - GRANTEE’S RESPONSE (FULL TEXT)




                                                           11
Attachment 1 (continued)
Attachment 2
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 3
Attachment 3 (continued)
Attachment 3 (continued)
                                                                 IG Report No. OAS-RA-11-20


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
